DIRECT DIAL

929.294.2537

DIRECT EMAIL

jmatz@kaplanhecker.com

September 22, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
Re:

Stars Interactive Holdings (IOM) Ltd., fka Amaya Group Holdings
(IOM) Ltd., et al. v. Kentucky, ex rel. J. Michael Brown, Secretary
of the Governor's Executive Cabinet, No. 21-275

Dear Mr. Harris,
I write on behalf of respondents in the above-captioned case to request an extension of time
to respond to the petition for a writ of certiorari. The petition was filed on August 23, 2021, and
placed on the docket on August 25, 2021. The brief in opposition is currently due on September
24, 2021.
Under Rule 30.4 of the rules of this Court, I respectfully request a 30-day extension—
through October 25, 2021—to file our response. An extension of that length will permit counsel
for respondents to review and respond to the petition and is necessary due to the press of other
business.

Sincerely,

Joshua Matz
cc: Petitioners’ Counsel

